<html>
<title> - FAST ACT IMPLEMENTATION: STATE AND LOCAL PERSPECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





         FAST ACT IMPLEMENTATION: STATE AND LOCAL PERSPECTIVES

=======================================================================

                                (115-10)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-912 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  


                  Subcommittee on Highways and Transit

                     SAM GRAVES, Missouri, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee       Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
DUNCAN HUNTER, California            STEVE COHEN, Tennessee
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
LOU BARLETTA, Pennsylvania           RICHARD M. NOLAN, Minnesota
BLAKE FARENTHOLD, Texas              DINA TITUS, Nevada
BOB GIBBS, Ohio                      SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            ALAN S. LOWENTHAL, California
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
ROB WOODALL, Georgia                 MARK DeSAULNIER, California
JOHN KATKO, New York                 EDDIE BERNICE JOHNSON, Texas
BRIAN BABIN, Texas                   MICHAEL E. CAPUANO, Massachusetts
GARRET GRAVES, Louisiana             GRACE F. NAPOLITANO, California
BARBARA COMSTOCK, Virginia           DANIEL LIPINSKI, Illinois
DAVID ROUZER, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE BOST, Illinois                  Georgia
DOUG LaMALFA, California             LOIS FRANKEL, Florida
BRUCE WESTERMAN, Arkansas            CHERI BUSTOS, Illinois
LLOYD SMUCKER, Pennsylvania, Vice    FREDERICA S. WILSON, Florida
Chair                                PETER A. DeFAZIO, Oregon (Ex 
PAUL MITCHELL, Michigan              Officio)
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)





















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

J. Michael Patterson, Executive Director, Oklahoma Department of 
  Transportation, on behalf of the American Association of State 
  Highway and Transportation Officials...........................     7
Gary C. Thomas, President and Executive Director, Dallas Area 
  Rapid Transit, on behalf of the American Public Transportation 
  Association....................................................     7
Hon. Kasim Reed, Mayor of Atlanta, Georgia, on behalf of the 
  United States Conference of Mayors.............................     7

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

J. Michael Patterson.............................................    35
Gary C. Thomas...................................................    47
Hon. Kasim Reed..................................................    55

                       SUBMISSIONS FOR THE RECORD

Letter of April 10, 2017, from Mickey Peercy, Director, Self-
  Governance, Choctaw Nation of Oklahoma, to Hon. Sam Graves, 
  Chairman, and Hon. Eleanor Holmes Norton, Ranking Member, 
  Subcommittee on Highways and Transit of the Committee on 
  Transportation and Infrastructure..............................    62
Letter of April 10, 2017, from Kathy Hope Erickson, Chairman, 
  Sitka Tribe of Alaska, to Hon. Sam Graves, Chairman, and Hon. 
  Eleanor Holmes Norton, Ranking Member, Subcommittee on Highways 
  and Transit of the Committee on Transportation and 
  Infrastructure.................................................    65
Letter of April 12, 2017, from Melanie Bahnke, President, 
  Kawerak, Inc., to Hon. Sam Graves, Chairman, and Hon. Eleanor 
  Holmes Norton, Ranking Member, Subcommittee on Highways and 
  Transit of the Committee on Transportation and Infrastructure..    67
Letter of April 12, 2017, from Blaine J. Edmo, Chairman, Fort 
  Hall Business Council, Shoshone-Bannock Tribes, to Hon. Sam 
  Graves, Chairman, and Hon. Eleanor Holmes Norton, Ranking 
  Member, Subcommittee on Highways and Transit of the Committee 
  on Transportation and Infrastructure...........................    70
Written testimony of the Poarch Band of Creek Indians............    72
Written testimony of the Solano Transportation Authority, 
  submitted by Hon. John Garamendi, a Representative in Congress 
  from the State of California...................................    74
Report of the American Association of State Highway and 
  Transportation Officials, ``AASHTO Implementation Plan for FAST 
  Act and MAP-21,'' April 2017...................................    76
Chart, ``AASHTO Surface Transportation Rulemaking Tracker''......   106


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
         FAST ACT IMPLEMENTATION: STATE AND LOCAL PERSPECTIVES

                              ----------                              


                        WEDNESDAY, APRIL 5, 2017

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2167, Rayburn House Office Building, Hon. Sam Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Missouri. We will go ahead and call the 
subcommittee to order. And I would like to say good morning and 
welcome all of our witnesses here today to the hearing. By now, 
we have all seen the reports of last week's fire and the 
resulting collapse of a section of I-85 northeast of Atlanta. 
This is a critically important piece of our infrastructure 
system, which carries over 400,000 cars a day. With that volume 
of traffic, it is amazing that there wasn't any loss of life in 
this incident. And I commend the State and local officials for 
responding so quickly to the crisis. I also want to commend the 
U.S. Department of Transportation for acting quickly to release 
emergency funds and provide assistance.
    We are here to examine the implementation of the FAST Act 
[Fixing America's Surface Transportation Act] with our State 
and local partners. The FAST Act is the first long-term surface 
transportation reauthorization bill in a decade, and it is an 
important foundation for building a 21st-century 
infrastructure. The 5-year bill provides very much needed 
certainty and funding, so that our non-Federal partners can 
make smart, long-term investments.
    The FAST Act is a forward-looking law that puts an emphasis 
on projects of national significance, the movement of freight, 
streamlining project delivery, and innovative solutions to 
transportation challenges. State departments of transportation 
and transit systems and local entities have the important task 
of delivering transportation projects to the communities. And 
as they carry out these projects, the witnesses have a 
firsthand view of how Federal transportation policies are being 
implemented by the U.S. Department of Transportation.
    We look forward to building a 21st-century infrastructure 
with our State and local partners, and we are going to very 
much welcome their input today. I now recognize the ranking 
member of the subcommittee, Ms. Norton, for your opening 
statement.
    Ms. Norton. Thank you very much, Mr. Chairman. Chairman 
Graves, I am very grateful for this subcommittee hearing. I 
think it indicates that our subcommittee wants to get beyond 
all of the interest that we have heard on infrastructure, and 
see what we can really do. We know that a large infrastructure 
package, the idea of a large infrastructure package, which is 
on the minds of many in the administration and on our minds, is 
not going to magically appear. We did a lot of--and I am going 
to say I think deservedly so--a lot of self-congratulation when 
we passed the first surface transportation bill in 10 years, 
and I must say, I am very grateful, Mr. Chairman, that it was a 
good bipartisan effort. And I know you share with me the 
disappointment that in order to get any increase whatsoever 
after 10 years, we had to make a 6-year bill a 5-year bill.
    I don't know how long we can keep that kind of 
disinvestment from going on. I say disinvestment because if you 
are not even investing in a state of good repair, much less the 
new infrastructure we need, you are not investing. We are 
disinvesting. Remember how we built this country. Ever since 
this idea of the Federal transportation infrastructure package 
was created by President Eisenhower, the country has understood 
that you can't be a great country unless you continuously 
invest in infrastructure of various kinds.
    Now the Congressional Budget Office tells us that we face a 
$139 billion shortfall in the Highway Trust Fund just over the 
next decade, if we are trying to continue to fund the FAST Act 
funding levels. And we need $17 billion more a year than FAST 
Act levels at the Federal level to improve our infrastructure 
and to maintain a state of good repair.
    I am very pleased that the President has said good things 
about infrastructure, so I hastened to get a hold of his so-
called skinny budget, and was very disappointed to see really 
unheard of cuts to popular transportation programs. So instead 
of investing, after my hopes had been raised, for example, in 
transit, urgently needed to alleviate congestion, the President 
wants to stop all new investments in transit by cutting off the 
New Starts program.
    I am grateful, nevertheless, for the continuing 
bipartisanship on this committee. I was pleased to sign a 
letter with Chairman Graves and the leadership of the full 
committee to urge the Appropriations Committee to fully fund 
all FAST Act programs as authorized for the remainder of 2017 
and in the upcoming 2018 budget. I am still banking on a 
President that talks about $1 trillion proposal, at least 
supporting us as we fight to maintain the meager funding levels 
we had. And I am not pulling my hair out that the President's 
cuts will go through, because no matter who is President, the 
appropriators always rewrite the budget.
    But I am concerned that the administration seems to be more 
enamored with pushing private capital and financing--which 
would end up making projects more expensive than traditional 
funding mechanisms--and regulatory reforms than making real 
investment. An investor-centered approach will do little to 
improve infrastructure across the Nation. I mean, you simply 
can't build your infrastructure and expect that toll roads will 
somehow pay for it. There must be a revenue stream, and for the 
modern era in American life, it has always begun with this 
committee and subcommittee. Nor can we streamline our way out 
of inadequate funding. Secretary Chao said recently the problem 
is not money.
    Imagine saying that about roads and transit. The problem is 
always money. She didn't say that last part. That was 
editorializing.
    She said it is the delays caused by the Government 
permitting processes that hold up projects for years, even 
decades, making them risky investments. But, in fact, if you 
check the data, only 4 percent of all infrastructure projects 
nationwide undergo any rigorous environmental review. Most of 
it is what you and I see every day, 90 percent of projects 
received from categorical exclusion through the categorical 
exclusion process, and are exempt from rigorous levels of 
review. A recent inspector general report also refutes the 
notion that more streamlining now is the prudent cost of 
action. It concludes that additional streamlining provisions in 
the FAST Act are actually slowing down the U.S. Department of 
Transportation's ability to implement the project delivery 
accelerations put into MAP-21.
    In other words, piling streamlining measures on top of each 
other, before they can be implemented, simply does not help, 
and, frankly, does not happen. I have always defended 
opportunities for public participation in NEPA, and continue to 
believe that it helps us to improve the ultimate projects. 
Community input and buy-in are crucial to the successful and 
expeditious advancement of transportation projects. Gutting 
public participation in the name of cutting redtape is 
something that will harm our roads and will harm the 
constituents who use our roads and infrastructure.
    I don't believe we can reinvent the wheel when it comes to 
transportation and infrastructure. I just think there is no way 
around our obligation as the Congress of the United States to 
provide the States and local governments with the funding and 
the flexibility that they alone know what to do with to produce 
smart and efficient projects, allowing the States, who have the 
wisdom, once we give them the money to go ahead.
    I very much look forward to today's witnesses. I have read 
the headlines, Mayor Reed, about Atlanta and I-85. It will be 
interesting to hear what we can do and what you can do on that 
unforeseen circumstance. Thank you very much, and I look 
forward to the testimony. Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Thank you, Ranking Member. I now 
turn to ranking member of the full committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for this 
important hearing. I will just restate a few things because 
they do merit restating. We have an $836 billion backlog on 
unmet capital investment needs for highways and bridges; nearly 
140,000 bridges need repair or replacement; and over $90 
billion just to bring existing transit up to a state of good 
repair, let alone build out new transit options for people. 
Yet, we haven't increased the user fee here in Washington, DC, 
in a quarter of a century.
    Over the past few years, 17 States have raised their gas 
tax, and nobody has been recalled. Nobody has lost their 
reelection, and it has not been a controversy. The American 
people get it. They are tired of sitting in traffic. They are 
tired of blowing out tires in potholes. They are tired of being 
detoured around weight-limited or closed bridges. They are 
tired of the decrepit state of our mass transit, and they want 
to see action.
    So, today, I am sending Secretary Chao a letter urging her 
to come down and work with Congress to create a consensus 
around real investment, and real solutions for the Nation's 
infrastructure problems.
    I am hearing a lot of talk about, well, it is going to be 
P3s; it is going to be infrastructure banks; it is going to be 
private tax credits, and we are going to streamline the Federal 
approval process. Let's address that briefly.
    First off, most P3s are projects $1 billion or larger. You 
have got to have a rate of return. You have got to attract the 
investment. They have to be tolled, or some other way, you 
know, to recoup the investment, and they are generally 5-to-1 
public money to private money. Now, the Speaker has said he 
wants 40-to-1 private money to public money. That means no more 
P3s. There are no investors out there who are going to put up 
at a 40-to-1 ratio and do a P3. They generally put up 10 to 15, 
at the most, 20 percent, and the rest comes from TIFIA or local 
bonding or State bonding, municipal bonds, whatever. That is 
myth number one.
    Now, infrastructure, banks, private-activity bonds, you 
know, those are new forms of local borrowing. Again, they 
require a revenue stream, hence tolling or some other way of 
recouping the investment. And, of course, they do increase the 
costs.
    Now Secretary Chao unfortunately was given some alternate 
facts by somebody. She stated: ``Investors say there is ample 
capital available waiting to invest in infrastructure projects, 
so the problem is not money. It is the delays caused by 
Government permitting processes that hold up projects for 
years, even decades, making them risky investments.'' No. No. 
That is not the problem. In fact, we made 42 major policy 
changes for streamlining in MAP-21. Not all of those have been 
implemented yet. In fact, some of them have run into conflicts 
with the FAST Act. So, we did streamlining. We did more 
streamlining on top of streamlining. Let's get all that 
implemented and see if there is still any issues. I don't think 
you will find many. In fact, more than 90 percent of the 
projects go forward under categorical exclusion, which is 
basically filling out a few sheets of paper, and it might take 
you 1 month or 2 months at the most.
    So that isn't the issue here. You can't streamline your way 
out of a lack of funding. So, you know, 4 percent of projects, 
4 percent, require environmental impact statements. And as 
Ranking Member Norton noted, most of those are held up at the 
local or State level because of controversy surrounding those 
projects, redesign, and other things which came out in 
hearings, which are required under the NEPA process. But that 
is 4 percent of the projects. So 96 percent don't even have to 
go through a rigorous environmental review.
    And a recent report by the Treasury looked at 40 
economically significant transportation and water projects 
whose completion has been slowed or is in jeopardy--ah, proof 
positive about streamlining. No. The report found that a lack 
of public funding is, by far, the major factor hindering the 
completion of those projects.
    So plain and simple, I got a provision in the FAST Act that 
says if Congress appropriates more money to transportation, it 
flows through the policies in the FAST Act. We don't need to 
spend a year or two rewriting the policies, arguing over 
transit highway split, arguing over enhancements, arguing over 
how much goes to freight, how much goes here, how much goes 
there, arguing. We don't have to go through any of the policy 
debate. All we need to do is have the guts to put up a little 
bit of money, and that is why I introduced A Penny for 
Progress. And as I have said before, if anybody around here 
thinks they are going to lose their election if they vote on 
something that caps the indexation increase at 1\1/2\ cents a 
gallon a year, then you don't belong here. Thank you, Mr. 
Chairman.
    Mr. Graves of Missouri. Thanks, Ranking Member. I will now 
introduce our panel. And first I would like to introduce Mr. 
Mike Patterson, who is the executive director of the Oklahoma 
Department of Transportation. He is testifying on behalf of the 
American Association of State Highway and Transportation 
Officials. We also have Mr. Gary Thomas, who is president and 
executive director of the Dallas Area Rapid Transit. And he is 
testifying on behalf of the American Public Transportation 
Association. And I would like to recognize Ms. Johnson of Texas 
to make a formal introduction of Mr. Thomas.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. As 
a Representative from Dallas, I am proud to introduce not only 
a friend and partner, but a good executive, who is Mr. Gary 
Thomas, president and executive director of the Dallas Area 
Rapid Transit, which we call DART. He and I worked 
cooperatively together for many years to cultivate our great 
city of Dallas into an interconnected transit hub that it is 
today as the largest growing metropolitan area in the country.
    He joined DART in 1998, and has since grown DART's light 
rail system into the Nation's longest and largest at 93 miles 
long. Under his leadership, DART has become a leading example 
for the Nation of how to effectively manage and grow a 
flourishing public transit network. I happen to know that DART 
also has very strong working relationships with our Federal 
partners at USDOT and the Federal Transit Administration, 
thanks to Mr. Thomas.
    He is also very effective at cultivating strategic 
partnerships with local stakeholders to meet the needs of the 
robust multimode transit network in the Dallas metroplex. And 
with that, Mr. Chairman, I am proud to introduce Mr. Thomas to 
the committee with great anticipation to his testimony and his 
plea for money. Thank you, and I yield back.
    Mr. Graves of Missouri. Thank you, Ms. Johnson. And 
finally, we have the Honorable Kasim Reed, who is the mayor of 
Atlanta, Georgia, and he is testifying on behalf of the United 
States Conference of Mayors. And I now recognize Mr. Johnson of 
Georgia to make a formal introduction.
    Mr. Johnson of Georgia. I thank you, Mr. Chairman. It is my 
distinct pleasure to recognize and welcome my friend, Kasim 
Reed, mayor of Atlanta, to this hearing. As we convene this 
hearing this morning, I can think of no better witness to offer 
than the Honorable Kasim Reed. Mayor Reed, when he first came 
into office, he balanced Atlanta's budget, and he took care of 
the challenge of the unfunded pension system which had been 
languishing for many years. That has been taken care of 
successfully 6 years ago, or 7 years ago, actually. He has 
invested in hiring more police officers in Atlanta. Our crime 
rate continues to go down. Mayor Reed is the 59th mayor of the 
city of Atlanta, serving in that capacity since 2010. Mayor 
Reed is known for building relationships and working in a 
bipartisan way with local, State, and Federal stakeholders on 
economic development and transportation issues.
    During his tenure, Atlanta has experienced significant 
economic development and a population boom. For instance, his 
work with Governor Nathan Deal and the Obama administration to 
obtain Federal support for the Port of Savannah Harbor 
Expansion Project, has resulted in much economic development 
for the Atlanta region and for the State of Georgia. The city 
has responded by undertaking an ambitious agenda to upgrade 
roads and bridges and improve the city's transportation 
infrastructure.
    The city of Atlanta, under Mayor Reed's leadership, is 
currently undergoing a historic $2.6 billion expansion of the 
Metropolitan Atlanta Rapid Transit Authority, or MARTA, as well 
as expanding and completing unique projects such as Atlanta's 
BeltLine, which is a 22-mile stretch of trails and transit 
around the city on abandoned railways. This project has opened 
up a lot of economic development in terms of new housing, 
rehabilitated housing, new residents coming in, businesses 
opening up, communities being created that are walkable, 
bikeable, and interconnected. And also, at the same time, he 
has presided over the opening of the Maynard H. Jackson Jr. 
International Terminal at the Atlanta Airport as Atlanta 
matures into a world-class city. He is overseeing, currently, a 
$6 billion expansion of the Hartsfield-Jackson Airport, an 
international airport, the world's busiest airport; at the same 
time building a state-of-the-art stadium for our dear Falcons. 
It nears completion, world-class facility with a retractable 
roof.
    So much that we can talk about, Mayor Kasim Reed's 
leadership. He is leveraging the strength of partnerships with 
the State of Georgia, colleges and universities, and the 
private sector to build an innovative transportation 
infrastructure that ensures mobility and creativity for 
Atlanta's residents, businesses, and visitors, all taking place 
while Atlanta remains an affordable city where everyday working 
people can afford to live, work, and play. With that, I am 
proud to introduce to this committee, Mayor Kasim Reed.
    Mr. Graves of Missouri. Thank you, Mr. Johnson. With that I 
would ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, that is so 
ordered. And since your written testimony is going to be made 
part of the record, the committee would ask that you please 
limit your summary to 5 minutes.
    With that, Mr. Patterson, we will start with you.

TESTIMONY OF J. MICHAEL PATTERSON, EXECUTIVE DIRECTOR, OKLAHOMA 
    DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE AMERICAN 
ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS; GARY 
C. THOMAS, PRESIDENT AND EXECUTIVE DIRECTOR, DALLAS AREA RAPID 
   TRANSIT, ON BEHALF OF THE AMERICAN PUBLIC TRANSPORTATION 
ASSOCIATION; AND HON. KASIM REED, MAYOR OF ATLANTA, GEORGIA, ON 
        BEHALF OF THE UNITED STATES CONFERENCE OF MAYORS

    Mr. Patterson. Thank you, Mr. Chairman, members of the 
committee. My name is Mike Patterson. I am the executive 
director of the Oklahoma Department of Transportation, ODOT, 
and I am here today to testify on behalf of ODOT and the 
American Association of State Highway and Transportation 
Officials, AASHTO. First, we want to thank you, Mr. Chairman, 
and other members of your committee, for your leadership and 
efforts to increase the efficiency of delivering transportation 
projects. In collaboration and in cooperation with the Federal 
Government, the State DOTs continue to seek opportunities and 
create solutions to solve the deteriorating national 
transportation system. All of us have come to realize that 
additional funding is important. That serves as a partial 
solution to the problem. The FAST Act's authorization of $305 
billion for Federal highway safety, transit passenger rail 
programs from 2016 to 2020 could not have been timelier in 
spurring our economic growth and investment in our multimodal 
transportation infrastructure. But equally important to 
initiating and completing transportation investments in a 
timely matter involves major programmatic and policy reforms 
contained in both the FAST Act and MAP-21.
    It is our hope that Congress will feel comfortable in 
seeking additional reforms that will provide further 
opportunities to improve the efficiency and effectiveness of 
transportation programs and project delivery while remaining 
responsible stewards of taxpayer resources in both human and 
natural environments.
    Moving forward, we must develop a modern revenue model for 
funding our surface transportation investments. The days of 
almost total reliance on consumption tax for a fleet of ever-
increasing fuel-efficient vehicles is nearing its end. What we 
consider innovative funding today must and will become a new 
normal for funding transportation. Until that time, it is 
imperative that the annual obligation authority in the FAST Act 
be fully honored, the structural cash flow deficit in the 
Highway Trust Fund be resolved, and the schedule of recisions 
of contract authority be abolished.
    Even in today's environment of financing solutions, it 
remains imperative that direct funding of transportation 
investments remain the primary focus. The reality remains that 
most transportation projects cannot generate adequate revenue 
to service debt or provide the return on investment required by 
private sector equity holders.
    Everyone recognizes that the FAST Act provides only a near-
term solution to the Federal surface transportation funding. 
That is because the Highway Trust Fund continues to remain at a 
crossroads. The Highway Trust Fund has provided stable, 
reliable, and sometimes substantial highway and transit funding 
for decades since its inception in 1956, but this is no longer 
the case. Since 2008, the Highway Trust Fund has been sustained 
through a series of general fund transfers now amounting to 
$140 billion. According to the January 2017 baseline of the 
Congressional Budget Office, the Highway Trust Fund spending is 
estimated to exceed receipts by about $17 billion in fiscal 
year 2021, growing to about $24 billion by 2027.
    Furthermore, the Highway Trust Fund is expected to 
experience a significant cash shortfall in 2021, since it can't 
incur a negative balance. AASHTO estimates that States may see 
a 40-percent drop from fiscal year 2020 to the following year, 
from $46.2 billion to $27.7 billion. In the past, such similar 
shortfall situations have led to the possibility of reduction 
in Federal reimbursements to States on existing obligations 
leading to serious cash flow problems for States and resulting 
in project delays.
    Based on the Federal Surface Transportation Program's long 
track record of efficiency and flexibility, we recommend that 
any increase in Federal funds should flow through the existing 
FAST Act formula-based program structure, rather than through 
untested approaches that require more time and oversight.
    Though certainly significant, benefits from investment in 
transportation infrastructure go well beyond short-term 
construction jobs created. A well-performing transportation 
network allows businesses to manage inventories and move goods 
more cheaply across a variety of suppliers and markets for 
their products and get employees reliably to work.
    Congress should encourage the USDOT to implement the 
provisions of both MAP-21 and the FAST Act, fully consistent 
with legislative intent. An example of the problematic USDOT 
regulatory action is the onerous and the unanticipated 
requirement regarding Metropolitan Planning Organization, MPO, 
coordination. Although State DOTS and MPOs already exemplify 
the kinds of coordination sought, the new regulation added 
significant legal and administrative requirements that would 
serve as barriers to constructive and flexible approaches to 
planning and programming being implemented by States and MPOs 
today. Along with the Senate's recent passage of companion 
legislation to repeal this rule, we appreciate your committee's 
prompt action last week to bring this before the House floor.
    Mr. Chairman, thank you for conducting this important 
hearing to bring a greater awareness of transportation 
infrastructure needs of the Nation, and thank you for the 
opportunity to provide testimony. We will be happy to answer 
any questions the committee may have.
    Mr. Graves of Missouri. Thank you, Mr. Patterson. Mr. 
Thomas.
    Mr. Thomas. Thank you, Mr. Chairman. My name is Gary 
Thomas, and I am the CEO of Dallas Area Rapid Transit. I 
certainly appreciate the work that this committee does, and 
thank you, Congresswoman Johnson, for your kind introduction; 
but more importantly, thank you for what you do in our region. 
You have been the stalwart congresswoman for our region for 
many, many years, and we certainly appreciate the impacts that 
you have had.
    I am grateful for the opportunity to talk about the impact 
that the partnership with the Federal Government, and most 
specifically, the FAST Act, is having on our community. DART 
was created in 1983, when north Texans voted to tax themselves 
a 1-percent sales tax to create a transit agency that, quite 
frankly, they didn't know what it was going to do at that point 
in time. Today, DART is a multimodal transit agency operating 
North America's longest light rail system in the fourth largest 
metropolitan area in the United States.
    The 2.3 million residents of our 13-city, 700-square-mile 
service area, count on DART's network of bus, light rail, 
commuter rail, and paratransit services, to give them a choice 
to get them where they need to go every single day.
    I have been part of the public transportation industry now 
for 30 years, and CEO since 2001. Public transportation is 
changing the way American communities grow. Equally 
importantly, we are seeing a significant return on the public 
investment. Transit-oriented development along DART rail lines 
has generated more than $7 billion in economic impact from new 
or planned construction. Additionally, in 2014 and 2015, there 
were 43,000 jobs that were created as a result of this 
development, resulting in nearly $3 billion in wages, salaries, 
and benefits.
    Now in our region, customers insist on being mobile and 
being connected. Our GoPass mobile ticketing app was one of the 
first in the industry to respond to that demand with a 
multiagency and multimodal fare payment system. Just over 2 
years ago, we began working with car and ride-sharing companies 
like Lyft, Uber and ZipCar to allow our customers to position--
to provide a more complete trip. In other words, first-mile, 
last-mile opportunities. Now we are using a Federal Sandbox or 
Mobility on Demand Grant to make it easier for car and ride-
sharing customers to connect with transit through that app.
    Our congressional delegation knows the Federal funds 
invested in DART will generate significant economic impact, and 
a higher quality of life in our region. We are pleased to enjoy 
consistent, bipartisan support. We also believe that we need to 
bring money to the table. Voters in our 13 cities decided to 
dedicate a portion of their sales taxes to help fund transit in 
their communities. We used that to leverage Federal dollars. 
The FAST Act and its predecessors are difference makers in 
north Texas, so you can imagine the disappointment we had when 
we heard the details of the administration's 2018 budget.
    DART's success is prompting calls for more service, as you 
might imagine. We are advancing plans for a second light rail 
line in downtown Dallas that we hope will be partially funded 
by a Core Capacity Grant. Unfortunately, the budget proposal 
would foreclose this possibility, so despite significant local 
investment, the project would be delayed at least 10 years 
without Federal funding support. Yet we need the capacity 
today.
    We are also bringing an old railroad corridor, the Cotton 
Belt, to life with a new commuter rail line, adding a new rail 
connection to DFW International Airport. In response to local 
demand, we are able to accelerate that project by more than a 
decade with the help from a RRIF loan, a Railroad 
Rehabilitation and Improvement Financing loan through the 
Federal Railroad Administration.
    Federal support has helped us complete the conversion of 
our bus fleet to compress natural gas. In addition, we are 
using Federal funds from the low- and no-emission bus program 
to purchase seven electric busses that will be in operation 
next year. We have been aggressive and intentional in seeking 
creative ways to fund and deliver our projects. It certainly 
doesn't hurt that we have been able to develop a reputation for 
consistently being under budget and ahead of schedule on our 
projects.
    Our mobility challenges are difficult, but certainly can be 
solved. People in communities everywhere are working on 
solutions that meet their unique needs. They have the vision 
and the desire. They need help with the funding. We believe 
there is a role for local communities to partner with the 
Federal Government to work together to support these visions 
with sustainable, substantial, and predictable funding that the 
FAST Act provides. I cannot impress upon the committee strongly 
enough how important it is to keep the FAST Act intact and that 
commitment intact as we move forward.
    Thank you very much, Mr. Chairman, and members of the 
committee. I look forward to answering any questions.
    Mr. Graves of Missouri. Thank you, Mr. Thomas. Mayor Reed.
    Mr. Reed. Thank you. Mr. Chairman, and members of the 
committee, I want to thank you for the opportunity to be here 
today. I also want to thank my congressman from Georgia----
    Mr. Shuster. Mayor, could you pull that mic a little closer 
to you? I want to make sure I hear every single word you say.
    Mr. Reed. Thank you, Representative Shuster. I also want to 
thank my friend, Congressman Hank Johnson, for that kind 
introduction. I am very hopeful that my wife was watching. That 
made me feel good about myself. Thank you, Congressman Johnson. 
I also want to thank the administration and this committee for 
your help with regard to the crisis that we have faced with the 
collapse of the I-85 interstate in Atlanta, Georgia. The level 
of cooperation from our Federal partners could not have been 
stronger, and I wanted to take this opportunity to express my 
personal gratitude.
    I come here today as the mayor of Atlanta and the chairman 
of the Transportation Committee for the U.S. Conference of 
Mayors. The challenge that we are having in Atlanta with I-85 
and its collapse really points out that an overall 
transportation system is needed now more than ever. In fact, 
since we have been facing this challenge with I-85, the use of 
MARTA, the ninth largest public transit system in the United 
States, has increased by more than 29 percent as we work 
through the challenge we are facing. So alternatives, including 
resilient models, we think will be increasingly important in 
the 21st century.
    But we are also investing in roads, which is an issue that 
I know is very important to members of this committee as well. 
In 2015, the State of Georgia passed H.B. 170 under the 
leadership of Governor Nathan Deal, which raised the gas tax in 
order to fund nearly $1 billion annually for bridge and road 
repair, so we are working hard to keep our own house in order, 
in addition to having a strong relationship with our Federal 
partners. The city of Atlanta is also moving full speed ahead 
and leading in our own way.
    Last November, the city moved forward with a half a penny 
sales tax referendum, which would generate $2.6 billion for 
MARTA, and this item passed with 71 percent voter support. We 
also had a second ballot measure, a TSPLOST, for four-tenths of 
a penny, which will raise an estimated $300 million for 
infrastructure projects, and it received 68 percent support.
    So I think it is important to realize that in Georgia and 
in the metro area, we are focusing on roads and partnership 
with the State, but we are also not leaving our transit 
responsibilities and capabilities behind. City residents are, 
indeed, voting with their pocketbooks, and businesses are 
voting with their feet.
    In the last 42 months, after we have made these investments 
in improving our road infrastructure and our transit 
infrastructure, we have won 17 either regional or U.S. 
headquarters in the city of Atlanta. They include businesses 
like NCR, Honeywell, GE Digital, UPS. We have had the largest 
net increase of jobs into the city in more than 40 years after 
making these infrastructure investments. This would not have 
been possible without the stability that was provided by the 
FAST Act and your leadership in making that legislation 
possible. So I wanted to thank you for that.
    In the last 2 years, Atlanta taxpayers have focused 
increasingly on making sure that we fund our share of 
infrastructure, and I think it is important to note that we ask 
this committee, as you develop future legislation, to always 
keep in mind what the local community has invested as we try to 
attract grants and Federal support. We are fixing roads and 
bridges, engineering more than 30 miles of complete street 
projects, including bicycle lanes and traffic light 
synchronization initiatives. As a result of all of these items, 
the city of Atlanta's credit rating has improved 7 positions, 7 
positions, to AA plus as rated by Standard and Poor's, Moody's, 
and Fitch. The point we are making is, is that when you invest 
in these critical infrastructure items, the market responds, 
and the business community responds.
    Modest expansion means the potential is very real for new 
light rail transit and flexible bus service that will connect 
with existing heavy rail and the Atlanta Streetcar systems. 
None of this would have been possible without your committee's 
support. Mr. Chairman, that concludes my testimony.
    Mr. Graves of Missouri. Thank you very much, Mayor. We will 
now turn to Chairman Shuster of the full committee.
    Mr. Shuster. Sorry I am late. I did make it to hear all 
your testimony. I want to thank you all. Mr. Patterson, Mr. 
Thomas, thank you for bringing your expertise, and thank you, 
Mayor Reed, for being here again. Outside of the Ninth 
Congressional District, I think you are probably my favorite 
mayor in America, because you really understand infrastructure. 
I am so sorry for what happened down there on the bridge in I-
85, but from what they are telling me, they are going to 
rebuild that bridge in about 80 days. This is certainly a 
tragedy. Thank goodness, thank God nobody was killed, but we 
ought to pay very, very close attention to how fast this moves 
because we need to learn from this as we did by the Interstate 
35 bridge several years ago. They built that bridge in about 
just shy of 400 days. These are the kinds of things that we 
should learn from as you move forward because it is going to be 
critical to do that.
    I was late because I spent an hour, just an hour with 
Secretary Chao. She came and briefed about 45 Members of 
Congress. She talked about the infrastructure bill and how 
important it is to the President; and, of course, 40, 45 
Members were there asking a lot of great questions, and there 
is a Federal component to it obviously, and we have got to 
figure the revenues out, how we get more revenues. Public-
private partnerships are a tool in the toolbox, but it is not 
the toolbox. It is a good tool; we need to make it better. And 
then figuring out how to unleash the private dollars. As I talk 
to people around the country, there is a $2 billion road 
project in California right now--$2 billion dollars, $50 
million of it is Federal money. The rest is California money, 
and State, local, private-sector dollars, they want to get 
about $500 million or $600 million in a TIFIA loan, and they 
are dragging their feet. These are the kinds of things we have 
to get out of the way of the States and the locals to move 
these projects forward.
    So I really appreciate the three of you being here today. 
Thank you so much. But I would be remiss if I didn't introduce 
and welcome to the committee the dean of the Secretaries of 
Transportation--the dean of the Secretaries of Transportation, 
from Oklahoma, Gary Ridley. Dean Ridley, it is good to see you. 
Just you being in the room, we are all learning through osmosis 
by you being here. So I really always appreciate you being 
here. I will say it again. I thank the three of you for being 
here, and thank you, Chairman Graves, for having this hearing.
    Mr. Graves of Missouri. With that we will open it up for 
questions. We will start with Mr. Barletta.
    Mr. Barletta. Thank you. As most of my colleagues know, I 
grew up working in the road construction business, and that 
experience showed me how difficult it can be for State and 
local governments to move forward with projects when they are 
uncertain about Federal transportation spending. Not only that 
experience, I was a former mayor as well, so I saw it on both 
ends. And that uncertainty trickles down to private industry. 
My family would not hire more workers or purchase more 
equipment without knowing what the future might hold, without 
knowing what kind of work would be out there and for how long.
    Now, under the FAST Act, Federal transportation funding 
runs out in 2020. Can any of you speak how this deadline 
affects your ability to move transportation projects forward?
    Mr. Thomas. Congressman, thank you for the opportunity to 
address that question. From the transit agency's perspective, 
we did a very detailed long-range financial plan, a 20-year 
financial plan, that identifies, assumes, in some regards, and 
identifies all of our revenue and also identifies all of our 
expenses, so our projects are very specific. We make sure that 
we know what we can build, when we can build them, and that we 
can operate and maintain them once we can build them. Not 
having the certainty beyond 2020 certainly prohibits us from 
that certainty, from that reliability of knowing what we can do 
in that 20-year plan. So it limits us as we look at one of the 
fastest, as our congresswoman said, the fastest growing regions 
in the country. We can't always predict and solve some of the 
transportation challenges that we need to be doing now to make 
sure that those projects are in place at that point in time. So 
the long-range funding is certainly critical for transit as we 
move forward. Thank you.
    Mr. Reed. As a follow-on to my colleague's comments, one of 
the things that we could absolutely do right now would be to 
smooth out the process around continuing resolutions, even 
under the FAST Act that we have right now. Whenever we have 
that tension period when we are waiting for the continuing 
resolution process, it affects our ability to budget. And our 
State DOT, for example, is in a position where it can't 
adequately prepare to get projects out waiting for that 
process. So that is something that is within the FAST Act 
structure right now that could help us push a great deal more 
dollars out to businesses to get folks working.
    Mr. Barletta. Thank you. One of the biggest complaints I 
hear from people back home is that redtape and bureaucracy 
consistently hamper investment and innovation. Now, the FAST 
Act called for greater environmental streamlining to get needed 
projects to completion faster. Can any of you speak to the 
success of this attempt? Is it actually happening, or are 
permits still slow to be developed by stakeholder agencies?
    Mr. Patterson. Congressman, as I mentioned in my comments, 
I really appreciate what has happened with streamlining and the 
effects that came out in the FAST Act and MAP-21. We still have 
some challenges. There are rulemaking processes that are still 
underway that we still don't have the rules in place, even 
after 5 years. But it is important that the rules come out 
right. We don't want them just to be expeditiously drawn up and 
be wrong. So we haven't felt all of the effects of your efforts 
and the rest of Congress' efforts to provide that streamlining, 
but we are hopeful that it does come to pass.
    Mr. Barletta. Thank you. And just finally, there is no 
question, we need to find a sustainable funding source for 
infrastructure. We can't keep pulling these rabbits out of our 
hat and these one-trick ponies, one-hit wonders, whatever we 
want to call them here in Washington, but we need a sustainable 
funding source. I support a user fee. I think it is one way 
that we can do that. What solutions do any of you have, maybe, 
for a sustainable revenue stream that we could put in the 
Highway Trust Fund, to help the Highway Trust Fund?
    Mr. Patterson. Congressman, Oklahoma is a member of what we 
call the Western Road Users Consortium. There is a group on the 
east coast----
    Mr. Nadler. Can you speak closer to the mic?
    Mr. Patterson. Oklahoma is a member of the Western Road 
Users Consortium, and there is a group on the east coast that 
is looking at what you call user fees, some sort of way to fund 
transportation beyond the consumption tax that I mentioned in 
my oral testimony. We see that something has to be done, and I 
appreciate the Federal Government and Congress providing some 
grant opportunities for our Western RUC to look at different 
funding mechanisms. I know that Oregon has a test underway, and 
California just entered into that similar kind of test model. 
So States are looking at that, and we hope that the Federal 
Government and Congress looks at our success and our failures 
to develop something for the future.
    Mr. Reed. Last month, we also visited with Representative 
Shuster and Ranking Member DeFazio to talk about their Penny 
for Progress proposal as a guide. Additionally, we really 
strongly believe that local governments and State governments 
that really put skin in the game ought to have a process where 
they have an advanced position in attracting Federal capital. 
So how you all would structure that on a long-term basis we 
would leave to the wisdom of this body. But when a local 
jurisdiction, or a State's citizens raise their hands and say 
we are going to be first in on dealing with our own problems, 
we believe that that municipality or State should be in an 
advanced position, and that significant points should be 
awarded to whatever pool of money you all ultimately make 
available for us to deal with some of these tough challenges.
    Mr. Barletta. Thank you. Thank you, Mr. Chair.
    Mr. Graves of Missouri. Ranking Member Norton.
    Ms. Norton. Thank you, Mr. Chairman. I would be interested 
in knowing if any of your States have raised the State gas tax 
and what the effect on public opinion was, and what do you 
think would be the effect of raising the Federal gas tax now 
that perhaps some State gas taxes have been raised? I would be 
interested in what all of you have to say about that.
    Mr. Thomas. Yes, ma'am, Ranking Member. Texas has not 
raised their gas tax since 1992, so it is much the same case. 
But when you watch gas prices every day swing 10, 15 cents a 
gallon, I am not sure how much a penny, penny and a half, 2 
pennies would be noticed. Certainly there have been 
conversations in Austin about gas tax, about vehicle miles 
traveled. There have been a lot of suggestions. We recognize, 
as a State, that something needs to be done, but much like what 
is happening across the country, a lot of conversation. We just 
haven't made that decision yet.
    Ms. Norton. Mr. Patterson or Mayor Reed?
    Mr. Patterson. Oklahoma has not raised our gas tax since 
1987. Governor Fallin has proposed to increase our fuel tax. It 
is estimated that by June, we will have the lowest fuel tax in 
the country at 14 cents for diesel----
    Ms. Norton. So how is that working out for you?
    Mr. Patterson. It is not working out too well. So Governor 
Fallin has made that proposal to increase it to 24 cents for 
each diesel and gasoline, and it is going through the 
legislative process at this point.
    Ms. Norton. Mayor Reed.
    Mr. Reed. Yes, ma'am. Our Governor, Nathan Deal, in 2015, a 
Republican Governor with almost near constitutional majorities 
in our House and in our Senate in Georgia with Republican 
majorities in both, raised the gas tax and raised $1 billion as 
a result of that. In the city of Atlanta, in November, we 
passed $2.6 billion for the largest expansion of our transit 
system in history. It passed with 71 percent local support. We 
also had a TSPLOST funding measure that passed with 68 percent 
local support to fund more than $300 million in infrastructure. 
A year prior to that, we had a local referendum for a $250 
million infrastructure bond. It passed with more than 80 
percent support.
    So my State--I am from the State of Georgia--we have a very 
conservative State, and all of these measures have been passed 
with broad majorities. The legislative majority was in the 
general assembly for the $1 billion in road money, and then the 
other items that I referenced regarding MARTA, our transit 
system, and our infrastructure funds, have been done within the 
city of Atlanta. So I think it is a nice mix of urban and rural 
showing that whether you are focused on rural folks or urban 
folks, people get that we need significant infrastructure 
investment.
    Ms. Norton. Very instructive. Conservative or Republican, 
nobody has found a way to build roads and bridges and transit 
systems without money. I am interested in what the States have 
done because almost half the States have taken the initiative, 
seeing that the Federal Government is stuck and has been stuck 
for a generation.
    One more question. I got into the FAST Act--actually it was 
the idea of a number of us--funds for alternatives. We don't 
just criticize the fact that Congress won't, or your States or 
those two States for that matter, continue to ignore the need 
for funds. We look for alternative funds, and note that some 
States have found alternative ways, or suggested alternative 
ways, or are actually experimenting. There is $10 million in 
the FAST Act for such experimentation. Looking at the notions 
to come forward recently about private investment as a way to 
fund roads and the investors getting back their investment 
through, I suppose, fares or tolls or the rest, I would be 
interested in knowing whether you think relying more heavily on 
private investment would help us, in fact, hasten the work that 
needs to be done on our roads, bridges, and infrastructure?
    Mr. Patterson. In Oklahoma, and in many States, we have 
seen a reliance more on private investors. In Oklahoma, we have 
our turnpike authority, which was created back in the late 
1940s, to develop a high-speed, safe transportation facility 
between Oklahoma City and Tulsa. From that point, it has 
expanded on, and it is clearly a tolling authority, but the 
private investors are the moms and pops around the country that 
buy bonds. So we can't forget that that is a private investing 
opportunity.
    Ms. Norton. But could you build most of the roads using 
tolls? Would the public tolerate that?
    Mr. Patterson. No, ma'am, we can't, and we realize that. We 
understand that at this point, many States are relying on some 
sort of tolling to make up the difference between adequate 
funding between both the State and Federal level.
    Ms. Norton. Could I just get answers from the other two 
witnesses, please?
    Mr. Reed. Congresswoman, I think that it depends, as long 
as you keep your focus on project models versus tax credit 
models. So, I think that the conversation has to be around real 
projects. Probably the most successful public-private 
partnership we have in our city is a project called the Atlanta 
BeltLine, where we reclaimed 22 miles of old abandoned 
railroads, and now, the $400 million in public support has 
triggered $3.8 billion in private capital attracted to 
renovating that entire corridor, and creating 1,200 acres of 
green space. That is a project model where everybody knows 
where the focus is going to be, and everybody is tracking the 
jobs that are being created. The concern that we are 
experiencing is moving to a tax credit model for the financial 
services community or financiers. And so that is the 
distinction that I think is going to be really important as we 
have this conversation. The most striking and most successful 
public-private partnerships that I have seen have been project-
specific with very broad community buy-in.
    Ms. Norton. Mr. Thomas.
    Mr. Thomas. Yes, ma'am. From a transit industry 
perspective, it is a little bit different. Transit P3s are a 
great opportunity perhaps, as long as you understand going into 
it that that money is going to cost you more than what you 
could typically borrow other places, so there are levels of 
public-private partnerships. Certainly in one case, where we 
worked very closely with Uber and Lyft, that is a public-
private partnership of sorts. On the other hand, when we do a 
design-build project, that is a public-private partnership, 
perhaps at the lowest level, but no funding or financing 
involved. When you get to the funding and financing level, and, 
of course, the associated risk-sharing opportunities, those 
cost more money. The private sector is going to expect higher 
interest rate on the money that they put into a project than 
what we can typically get through the Federal funds, or even a 
RRIF or TIFIA loan.
    Ms. Norton. Thank you very much.
    Mr. Graves of Missouri. Mr. Davis, 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman.
    Thank you to the witnesses. Mayor Reed, sorry about the 
Braves on opening day. Not an easy thing, especially after the 
Falcons.
    Mr. Reed. I hadn't gotten over the Falcons, but I 
appreciate it. I appreciate all the good will I can get.
    Mr. Davis. Well, we don't want to remind you of bad things 
happening to Atlanta sports, but as a Braves fan myself, it is 
always good to have the mayor of Atlanta here. I want to ask 
you about funding set aside under the Surface Transportation 
Block Grant Program that is suballocated to localities. STBG, 
formerly STP, is the most flexible formula transportation 
funding available to States and municipalities to improve 
Federal highways, Federal aid highways and bridges. And I was 
pleased that the FAST Act took important steps to gradually 
increase STBG allocation closer to traditional levels, reaching 
55 percent by 2021.
    Mayor, can you explain for the committee the importance on 
increasing the suballocation of these funds for local 
communities like yours to be able to address your 
transportation and infrastructure problems?
    Mr. Reed. Congressman Davis, I think that they are 
absolutely vital, and they will encourage local municipalities 
to deal with our infrastructure challenges.
    The one point that I would make here is one I have already 
made, which is that I do believe that local governments that 
really step up and start solving these problems on their own 
should have a dynamic competitive advantage. And that is not, 
in my opinion, enough of the consideration as a part of this 
process. I believe that the steps that were already taken have 
been vital, but I do believe that our Federal partners could 
encourage us to do more on our own in order to be rewarded for 
that good behavior.
    Mr. Davis. Well, I appreciate hearing that, Mayor. And 
also, I am pleased, you know, that the FAST Act does gradually 
increase that local control by increasing the suballocation for 
STBG, but I would have preferred for actually a larger 
increase. And that is why I, along with my friend, Ms. Titus 
from Nevada, advocated for language that would have gradually 
increased that suballocation to 60 percent by 2021. And while 
we were ultimately unsuccessful, I still believe we should look 
at ways to increase the local control and flexibility of these 
transportation dollars.
    Do you have any suggestions additionally to what you 
responded to my previous question with, that Congress could 
take to further promote local control and help communities 
better address your priorities?
    Mr. Reed. I think holding up national models that Congress 
has confidence in for other governments to see would be very 
helpful. In other words, having some forum playing a 
clearinghouse function where the answer isn't always additional 
money or capital, but the answer may be that these are 
governments that are taking on these challenges and handling 
them well from a financing standpoint and execution standpoint, 
and a value of the dollars generated, because everybody's going 
to come here and ask for more money. But, if you are a local 
leader or a mayor, you have an end date. And to the extent that 
a body like yours held projects out as models after you 
verified them and are prepared to put your stamp of approval on 
it, I think that it would make it much easier to scale these 
projects around the country in communities large and small.
    Mr. Davis. That is great advice. And do you have any 
projects that you might want to mention here to the committee 
that are working well as maybe public-private partnerships 
regarding infrastructure improvements in Atlanta?
    Mr. Reed. Absolutely. I believe that the Atlanta BeltLine 
is as successful a private-public partnership as anywhere in 
the country. If you have been to New York and enjoyed their 
High Line, the Atlanta BeltLine would be the equivalent of 
extending that to Westchester County. It is $400 million in 
public money; it is $3.8 billion in private money; it connects 
45 neighborhoods that used to be separated by freeways. It has 
caused the city to connect just socially in a way that it had 
never connected before. That would be one example.
    Another example would be the Atlanta Streetcar, where we 
had $98 million in public investment and we have had $2.5 
billion in new construction activity within a 5-minute walk of 
that line.
    Mr. Davis. OK. I am not as familiar with that first project 
you mentioned. How are you paying back the private portion as a 
return on investment, what method?
    Mr. Reed. It is through the use of tax credits for 
investments. So, for example, when you invest in the Atlanta 
BeltLine, the public went in and did all of the spending that 
it took to clean and prepare it; and then the private sector 
came in after the public sector went in and identified the 
line. So, for example, there was a 1-million-square-foot 
building that had been boarded up and was dilapidated. It has 
now attracted one-quarter of a billion dollars' worth of 
investment. That used to be owned by my government. I sold it 
to the private sector for $27 million. The private sector came 
in and invested one-quarter of a billion dollars. It is built 
on the Atlanta BeltLine, and now 1.4 million people are using 
the Atlanta BeltLine.
    Mr. Davis. Thank you very much for your responses and 
thanks for being here.
    Mr. Reed. Thank you for the question.
    Mr. Graves of Missouri. Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Patterson, your written testimony implies that the FAST 
Act authorization levels rise faster for transit than for 
highways. In fact, highway and transit funding each increase an 
average of 3 percent per year over the 5 years of the FAST Act. 
This committee has stood by the 80/20 Highway Trust Fund split 
for decades. Does AASHTO support maintaining this historic 80/
20 split between highway and transit funding in future 
transportation bills as we did in the FAST Act?
    Mr. Patterson. Yes, sir, we do. We believe that----
    Mr. Nadler. Talk to the mic, please.
    Mr. Patterson. I'm sorry.
    We do believe that the 80/20 split is appropriate and 
should be maintained.
    Mr. Nadler. Thank you. And, also, your testimony makes a 
compelling argument that direct funding is essential for 
highway and bridge projects. You have made the case that 
public-private partnerships, State infrastructure banks, TIFIA 
credit assistance and local bonding initiatives are helpful, 
but will not replace real direct dollars.
    Can you please explain why most transportation projects 
cannot generate sufficient revenue through tolls, fares, or 
other payment models to provide a return on investment for 
private sector investors?
    Mr. Patterson. When you typically look at a transportation 
project across this country, when you are talking about rural 
or urban situations, there is no opportunity, in most cases, to 
toll that facility. Additionally, there is no economic way to 
capture the dollars that are generated along the route. An 
example, in Oklahoma we have seen where, in a small town in 
southern Oklahoma, they grew out and annexed out to what we 
call Interstate 35. They did that because of the economic 
development the interstate provided to them, but we, as a DOT, 
can't capture that. But there was benefit to the city, through 
additional sales tax.
    Mr. Nadler. Thank you. I have one more question for you, 
sir, and then I will move to the other witnesses.
    Earlier this year, Speaker Paul Ryan suggested that an 
infrastructure package should consist of 98 percent private 
funding. Specifically, the Speaker said that there should be a 
40-to-1 ratio between private sector and public sector funding 
in a Federal infrastructure package.
    Mr. Patterson, your testimony discusses the importance of 
direct Federal funding for transportation, which accounts for 
43 percent of highway capital expenditures nationwide. Do you 
believe that an infrastructure package that relies on 98 
percent private funding can adequately address the needs of 
Oklahoma and other States?
    Mr. Patterson. I don't understand how you get to that 
perspective. It is something that I would have to learn more 
about.
    Mr. Nadler. Well, the perspective is basically that you 
have some sort of tax credits with Federal funding that amounts 
to 2 percent, and the other 98 percent comes in from private 
P3s or something. You don't think that works?
    Mr. Patterson. I don't think it works in Oklahoma.
    Mr. Nadler. But you do think it works elsewhere, just not 
in Oklahoma?
    Mr. Patterson. I can't speak for the other States, but I 
would imagine not.
    Mr. Nadler. Thank you.
    Mr. Thomas, do you agree that public-private partnerships, 
State infrastructure banks, TIFIA credit assistance, and local 
bonding initiatives are helpful, but cannot replace real direct 
dollars?
    Mr. Thomas. They give us tools in the toolbox, but it needs 
to be a complete toolbox. Otherwise, you can't get the project 
done, sir.
    Mr. Nadler. And it is an incomplete toolbox without direct 
Federal funding?
    Mr. Thomas. Yes, sir.
    Mr. Nadler. Thank you.
    Mayor Reed, do you believe that private investors will be 
able to fund the vast majority of highway and transit projects, 
or that most projects will require Federal, State, and local 
funds to complete?
    Mr. Reed. I don't believe that the private market will do 
that, because they will cherry-pick projects, which will leave 
essential projects that we need that are just not as 
financially attractive. And so, the answer is, I believe that 
the public-private partnership model is important, but it will 
not replace the need for our Federal partners to bear the 
lion's share of the load, because the incentive to do a private 
deal is to make a profit for the private sector.
    Mr. Nadler. So, in summary, for all three witnesses, the 
proposal that we have heard--the administration has not made a 
formal proposal, but the proposal that we have heard may be 
coming from the administration that they will do, I think, an 
82-percent tax credit, again, for private partnerships, and 
that will fund $1 trillion in infrastructure. Do any of the 
three of you believe that that would work to fund $1 trillion 
in infrastructure, if the only Federal money basically is an 
82-percent tax credit?
    Mr. Reed. I do not. I believe that you have to have a 
project model, not a tax credit model.
    Mr. Nadler. What do you mean by a project model?
    Mr. Reed. I mean, specific projects that you are 
identifying that the Federal Government is investing into in 
order to create jobs, as opposed to a tax credit model.
    Mr. Nadler. So there has got to be a Federal investment in 
addition to tax credits?
    Mr. Reed. Yes, in addition to a State and a local 
investment.
    Mr. Nadler. Mr. Thomas, Mr. Patterson.
    Mr. Thomas. I agree with the mayor from Atlanta, that there 
has got to be the direct investment and that the tax credits 
wouldn't do it all by itself.
    Mr. Nadler. Thank you. Mr. Patterson.
    Mr. Patterson. I agree with the other two.
    Mr. Nadler. Thank you. So, in summary, all our witnesses 
think that the proposal that I outlined which we have heard 
will be the administration proposal, would not, in fact, 
generate $1 trillion for infrastructure investment or anything 
near it. Is that correct?
    Mr. Patterson. Yes.
    Mr. Thomas. Yes.
    Mr. Nadler. Thank you very much. My time is well expired.
    I thank the chairman for indulging us in the time.
    Mr. Graves of Missouri. Mr. Ferguson, 5 minutes.
    Mr. Ferguson. Mayor Reed, glad to have a fellow Georgian in 
today, and thank you for taking time. I know the new mantra in 
Atlanta, the new hashtag is #IfICanGetThere. It has been tough. 
But I want to thank you all on behalf of the rest of the State 
for your diligence and working, of course, with Governor Deal 
to help mitigate what is a very, very difficult situation for 
not only Atlanta, but the Southeast. And I think it goes to 
show just how important transportation is, that one breakdown 
of the system can have ripple effects throughout an entire 
region.
    Can you speak briefly to the coordination needed between 
local, State, and Federal officials, and, most importantly, on 
the planning process as it relates to transportation projects, 
and also, a little feedback on how the response was from the 
Federal Department of Transportation with the emergency on I-
85?
    Mr. Reed. Well, thank you, Congressman. And your accent was 
music to my ears. I felt right at home when you said hello.
    Here is what I think: I think that the most important fact 
has been that Governor Deal and I always had a strong working 
relationship. And so, whether it was when the State of Georgia 
was competing for TIFIA funding, or we were competing for a 
number of TIGER grants, or working to deepen the Port of 
Savannah, we have always partnered. And so when you have an 
emergency like we had regarding the bridge collapse on I-85, if 
you work together all of the time in a cooperative fashion, you 
just get through this challenge the way that you will get 
through others.
    The bulk of the credit, Congressman, belongs to our first 
responders. In a tragic event, we had no loss of life, and I 
think the credit to that goes to our firefighters and our 
police officers and our State patrol officers. They 
coordinated. They shut down the highway expeditiously. And then 
we coordinated in deploying resources, which included foam fire 
trucks from Hartsfield-Jackson Atlanta International Airport, 
which were essential in putting the fire out so that less 
damage was done.
    Our Federal partners have been exemplary. They have worked 
in the best tradition of the Federal, State, and local 
relationship. And I had been in multiple meetings, because it 
was sine die for the legislature. We were at the State capitol 
when this crisis occurred, and we instantly began working 
together. And I think that is why we are going to get the 
highway up and operational as soon as we possibly can. And I 
also think that that is why you haven't seen us playing typical 
political games of blames-personship.
    Mr. Graves of Missouri. Ms. Johnson.
    Ms. Johnson of Texas. Thank you. I thank you, Mr. Chairman, 
for this hearing. It has been one that has brought a great deal 
of frustration for me as I sit here and look at that quotation 
up there on the wall. The section of the Constitution, article 
1, section 8, speaks to the Federal Government's responsibility 
toward post offices and roads. We have privatized the post 
office, and I don't know what we are getting from it. But I 
just don't see how we can privatize transportation. 
Nevertheless, I am one of these people that will try to find a 
way to work with any philosophy that I can to try to get a job 
done.
    But this is a tough approach to attempting to address the 
essential transportation problems in our country. So I am going 
to ask Mr. Thomas, how detrimental will these cuts be, or if 
they will be detrimental to the city of Dallas, to DART, and 
the cities across the country if the CIG [Capital Investment 
Grants] programs are cut? We have a lot of plans to accommodate 
the needs in the area, as I am sure every other major city 
does. But when you read the President's budget, what is your 
reaction? Where do we go from here?
    Mr. Thomas. Congresswoman, right now we have three projects 
that are well into the process in the Dallas area alone. Two 
are core capacity projects, and one is a Small Starts project. 
The one is a second alignment through downtown. Again, when 
people think of transit in the United States, they don't always 
think about Dallas, Texas. But as I said earlier, we have got 
the longest light rail system in the United States, in North 
America, for that matter. All of those corridors, all of those 
lines come through a single corridor in downtown right now. If 
there is anything that happens on that corridor, an accident, a 
fire--we had a fire a few years ago. When the firemen lay their 
hoses across the tracks, they don't particularly want trains to 
run across those hoses, and we appreciate that and we 
understand that.
    So we desperately need that second alignment through 
downtown Dallas. We are proposing a 50/50 split, in other 
words, bringing 50 percent of the funding for that project from 
local funds, with a 50-percent match from the Federal 
Government on a core capacity.
    The other project that we are working on is an extension of 
our older platforms, which would allow us on 28 platforms to 
extend those 100 feet, which gives us, just by that alone, 30 
percent capacity increase on those two lines, the Red Line and 
Blue Line. Again, looking for a 50/50 split. TxDOT has actually 
come to the table with half of that, and so we are looking at 
the core capacity program for the other half.
    The third project is an extension of our Streetcar project. 
The Streetcar program that we just opened not too long ago is 
unique, because it uses American-made streetcars, streetcars 
that actually are dual mode. They will operate with an overhead 
wire and without an overhead wire. We intend to extend that 
through downtown Dallas with the Small Starts program. We are 
well into the process, the environmental process, working with 
the community, making sure we know where these projects should 
go, what the alignments are, building that support locally. All 
of those go away. They go away.
    Ms. Johnson of Texas. Now, we still are having tremendous 
growth to the area. So if they go away, where do we go from 
there?
    Mr. Thomas. That is a good question, Congresswoman. You 
know, I think as we look at certainly in our region, but across 
the United States, the impact of the Capital Investment Grants 
has been important, has been critical, as transit agencies have 
continued to provide choices for people in their communities to 
be able to get where they need to go, whether it is to the 
doctor, to the grocery store, and, most importantly, to jobs. 
Well over 80 percent of the people that are riding public 
transportation are going to their jobs.
    So it is imperative that we continue to look for and 
continue to support the FAST Act. It has been incredibly 
successful to this point. I think it is imperative that we 
continue to support that through 2020, at least.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Thomas. Yes, ma'am.
    Ms. Johnson of Texas. Mr. Chairman, my time has expired.
    Mr. Graves of Missouri. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman, and, panelists, for 
joining us today.
    Mayor Reed, I will start with you first of all. Thank you 
for being here. And I wish the best to the Braves so long as 
they don't have any cross-interest with the Giants. Former 
National League West mates; now it has all changed. Anyway.
    You know, we have some commonality with emergency 
situations here with you with that bridge and I-85 here. And I 
still harken back to when things went really well after the 
Northridge earthquake in California. This is way back in 1994, 
where it was projected it might be a year, year and a half 
having one of the biggest freeways in the country or the world 
knocked out, that due to a can-do attitude from contractors and 
the State pulling together and putting aside some unnecessary 
redtape, they were able to get that back up within just a few 
months and save much, much loss in economic activity and 
inconvenience to the people in southern California there.
    And so, I hope that that is going well and you are getting 
all the cooperation in the world from the Federal Government 
and others to see your bridge through. My understanding is that 
on the original timetable, from what I saw in the press 
yesterday, moved up from maybe the fall or the winter to maybe 
June. So I hope it is moving fast for you.
    We have an immediate need in our own backyard with--I am 
from northern California, where you may have seen the story 
about Oroville Dam and the spillway problem we had here 
February, and it resulted, partly as a precaution, in an 
evacuation of nearly 200,000 people that were downstream of 
that. Nothing really bad ended up happening with the emergency 
spillway there, but the potential for the erosion that was 
there due to a design that is, indeed, questionable, made that 
necessary for public safety requirements. So infrastructure and 
the public safety are very intertwined, as we have seen.
    Do you feel that the Federal transportation infrastructure, 
the programs that support the locals in increasing public 
safety and being prepared as much as they need to be for 
emergency situations like I am talking about in my backyard or 
SoCal years ago or what you face with the loss of that bridge 
in your area, the Federal Government, are we doing a good 
enough job supporting the local levels in that safety aspect? 
Again, specifying emergency situations where you need quick 
action?
    Mr. Reed. My sense is yes. I chair a group called UASI, 
which is our local disaster planning entity in Metropolitan 
Atlanta. And I think that when it comes to emergency response, 
everything that I have seen shows a high level of 
professionalism and a high level of coordination. And so, that 
is an aspect of the Government that I feel very good about.
    I do believe that we are all going to have to change at the 
local level really to a posture of being resilient, because 
without moving into a debate about climate, weather patterns 
and emergency situations are coming with increasing frequency. 
And, so, I think that this is a conversation we are going to 
have to start having more aggressively with our Federal 
partners.
    The things that you are experiencing in northern California 
really have a great deal to do with being on a permanent 
resilient footing. And as I sit here testifying right now, we 
are experiencing unusually bad weather in the city of Atlanta, 
and have been. And so what is happening is, local governments 
are having to be on an almost permanent footing of responding 
to crises of one kind or another, frequently, weather-related 
crises.
    Mr. LaMalfa. Do you think greater weight should be given to 
not only improved movement, but the flexibility in emergency 
situations that could come through the FASTLANE program?
    Mr. Reed. There is no question about it. Flexibility is 
going to be either the order of the day, or it is going to be 
thrust upon us by circumstances. So I think that it is a more 
thoughtful approach to have flexibility built into the 
relationship as opposed to having good people have to make it 
up at the last minute.
    Mr. LaMalfa. Thank you.
    Mr. Reed. Thank you, Congressman.
    Mr. LaMalfa. I appreciate it. And in my experience, your 
airport also has been very good as I take the red eye from the 
coast and end up there about 6 a.m. sometimes, but it is always 
a nice facility to be with. Just the line at Popeyes is always 
too long at 6 a.m. there.
    Mr. Reed. That is the busiest Popeyes Chicken in the world, 
by the way.
    Mr. LaMalfa. Thank you, sir.
    I yield back.
    Mr. Graves of Missouri. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Thomas, I have a question in regard to Capital 
Investment Grants. The Trump administration's skinny budget 
calls for elimination of Capital Investment Grants or the New 
Starts. DART has two separate projects in this pipeline. Do you 
think it makes fiscal sense to eliminate an infrastructure 
program that has 55 projects from across the country in the 
planning engineer stage, potentially sending back billions of 
dollars of infrastructure investment?
    Mr. Thomas. Certainly across the United States, 
Congresswoman, there has been a lot of work done in preparation 
of these projects. A lot of these projects, as they are in 
Dallas, have gone through extensive community meetings, lots of 
planning efforts, lots of coordination. And certainly in our 
case, we are bringing a significant amount of money to the 
table, as we always have, as we will continue to do in our 
financial plan.
    And people have looked at the FAST Act as--that although it 
only goes to 2020, and we understand there are challenges 
beyond that, we are certainly appreciative of the long-term 
bill. We would like for it to stay intact and for it to 
continue to move forward through 2020. So these agencies, 
including ours, that have anticipated that funding can go ahead 
and get these projects completed and provide those choices to 
people----
    Mrs. Napolitano. Yes, but does it make fiscal sense to 
eliminate them?
    Mr. Thomas. Certainly in DART's case, no, ma'am, it does 
not, because we are bringing money to the table. They are 
getting 50 cents on the dollar for a project. So it seems like 
it makes a whole lot of sense to continue to do that.
    Mrs. Napolitano. Thank you. Another question I have has to 
do with Positive Train Control. The FAST Act provided $199 
million guaranteed for the Mass Transit Account of the Highway 
Trust Fund for fiscal year 2017, to help commuter railroads 
implement PTC. The Appropriations Committee, our very own, did 
not make the funding available, however, under the continuing 
resolution. This critical safety funding will lapse if the CR 
is extended for the remainder of this fiscal year.
    Mr. Patterson and Mr. Thomas, can you elaborate why this 
funding is important to your agencies?
    Mr. Thomas. Well, certainly the transit industry is hopeful 
that Congress will quickly complete the fiscal year 2017 budget 
so that that $199 million of grant funding can be allocated to 
the properties throughout the country. We have got a 2018 
deadline for our commuter rail system to put that in place. 
That requirement comes on top of operating and maintaining our 
system every day. So it is imperative that----
    Mrs. Napolitano. It has already been extended once.
    Mr. Thomas. Yes, ma'am. And so it is imperative to meet the 
2018 deadline to get that funding in place so we can get that 
critical safety project completed.
    Mrs. Napolitano. Thank you.
    A question primarily for Mr. Patterson and Mr. Reed--Mayor 
Reed. I have been working on an amendment to FAA 
reauthorization to prohibit FAA from impacting State and local 
general sales tax. The issue: For 30 years, FAA has required 
excise tax on aviation fuels to be spent on airports for 
airport infrastructure, but for 30 years, the FAA has not 
interpreted this requirement to affect general sales tax, which 
tax aviation fuel as well as other products sold in the country 
or the State. Now they are changing their interpretation, 
requiring State and local governments to count how much money 
is collected by the general sales tax on aviation fuel and 
siphoning the money back to the airport.
    A major Federal business problem when State and local 
governments are being told how to spend their own tax dollars 
by the FAA. It will impact local transportation projects, since 
most sales tax around the country provide for local 
transportation funding.
    The Hartsfield-Jackson Atlanta International Airport in the 
State of Georgia is one of the most impacted regions in the 
country with the new rule. It will take millions of dollars out 
of local control, a major problem in my State of California. 
Are you aware of the issue and do you have concerns with this 
new FAA rule? Should Congress fix and return 30 years of 
precedence that allows State and local governments to spend 
their general tax revenue as they see fit?
    Mr. Patterson. I don't have any knowledge. I have 
knowledge, but I can't really comment on that. I think the 
mayor would be better suited for this answer.
    Mr. Reed. Congresswoman, I am on your side. And I don't 
think I could have said it better than you just said it.
    Mrs. Napolitano. Well, it is an infringement upon the local 
control, as far as I am concerned.
    Thank you, Mr. Chair, I yield back.
    Mr. Graves of Missouri. Mr. Smucker.
    Mr. Smucker. Thank you, Mr. Chairman.
    As a business owner of a construction company for 25 years 
prior to serving in the State legislature and then here, I 
understand the importance of a good highway/bridge system with 
infrastructure to move goods and employees to job sites, and 
the importance of infrastructure to our economy, essentially.
    And then when serving in the State legislature, we were one 
of those States that were able to pass a bill that provided for 
additional sustainable funding for our highway and bridge 
system. In our case, it was a wholesale gas tax that had a cap 
on it tied to the price of gas. We essentially lifted the cap. 
But generated billions of dollars of additional funding, mostly 
for maintenance and repair of our current system, in some 
cases, adding additional capacity. But we had the highest 
number of structurally deficient bridges of any State, I 
believe, at the time, and there was a real need.
    But the reason I bring that up--and, Mayor Reed, maybe this 
question will be directed to you--it was really important for 
us--let me back up. So it was a Republican legislature, both 
Houses, and a Republican Governor at the time. And I just 
mention that because you mentioned that in Georgia, but also 
mention it because at the same time that we were able to gather 
support for that, we were looking at all aspects of our budget. 
And, in fact, were cutting back in other areas, because we 
really believed that we needed to focus on the core functions 
of Government, and were able to make the case to the people of 
Pennsylvania that infrastructure is not only a core function of 
Government. It is something you have to do at that level, but 
also was critically important to people who were caught in 
traffic, in congestion, and critically important to the 
economy.
    And it took a concerted effort, it took a lot of hearings, 
it took a lot of discussion with the public to gain that 
support that was required to pass that. And I think that is 
something that we will need to do here. And I support finding a 
way for sustainable funding. I think the point was brought up 
earlier, it is so important to not only the States and local 
municipalities to have that dependable, sustainable source of 
funding, but to all of the businesses that rely on this. It is 
critical for efficient delivery to know we can plan ahead.
    So, Mayor, I guess a question to you: Can you give us some 
insight? I think, if I understood your testimony correctly, 
while you were there, you essentially passed a 1-percent sales 
tax that went to infrastructure. And you said also Georgia was 
doing that at the same time. What can we learn from that in 
terms of building the public support for investment in our 
infrastructure?
    Mr. Reed. Congressman, I think what we can learn is that 
the public is ahead of us. And I think that when we talk 
plainly and explain what the challenges are, the public will 
come on board as long as they believe that we are going to make 
good use of their funds. I imagine you experienced that in 
Pennsylvania.
    In Georgia, our State is one of eight States in America 
with a AAA credit rating from all three rating agencies. One of 
the reasons is tight fiscal management, but also the decision 
that we made around transportation. We have grown to be the 
10th largest State in the Union. The Atlanta metropolitan 
region is now the ninth largest metro in the country, with a 
GDP of $335 billion. And we have gone from a really low credit 
rating to AA plus, from Standard and Poor's, Moody's, and 
Fitch. So I think the arguments that you make is--and we have 
had an absolute jobs boom.
    And what we are all concerned about is who is going to win 
the war for talent. And I think that folks like you and I have 
to just get out and make the case. And I thought it was really 
important that a Republican Governor, Republican House, and 
Republican Senate passed $1 billion for transportation, because 
our folks were stuck in traffic like you all. And then on the 
transit side, we are doing the biggest transit expansion in the 
history of our system. And it will be one of the seventh 
largest transit expansions in America, but we did it with 71 
percent voter support at the ballot. I think that was a nice 
bipartisan collaboration.
    Mr. Smucker. Thank you. I was hoping to get input from the 
other panelists as well, but I see that I am out of time.
    Mr. Reed. I apologize. Thank you for the question.
    Mr. Smucker. Thank you.
    Mr. Graves of Missouri. Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Mayor Reed, you served in the Georgia Legislature for 10 
years, both in the House and Senate. And so you know how 
conservative and fiscally restrained the environment is among 
our legislative friends in Georgia. But yet, back in 2015, 
Georgia increased its gas tax from 7.5 cents to 26 cents, and 
increased the diesel tax to 29 cents, and then indexed it so 
that every year it is adjusted in accordance with the Consumer 
Price Index.
    Can you comment about the conditions that existed in 
Georgia that led to the passage of that gas tax increase? And 
also, what political fallout, if any, occurred as a result of 
passage, and then the benefits from passing that increase?
    Mr. Reed. Thank you for the question, Congressman. I think 
the bottom line is that if you want to lose an election in 
Georgia, you would be the person to lose the State's AAA credit 
rating. And I think that everybody acknowledged--everybody was 
experiencing the same thing. We were all sitting in traffic. We 
had tried to pass a regional bill. You remember that. The 
Governor and I worked to pass a regional transportation bill 
that was soundly rejected by the voters at the ballot.
    So the problem of traffic in Atlanta--we have among the 
worst traffic in the United States--it was really starting to 
impact our ability to attract jobs and business when we were 
trying to fight our way out of the recession. And every meeting 
that the Governor and I went to when we were recruiting 
businesses and working to keep businesses in Georgia, they 
said, you have to do something about the traffic.
    And so I think that it was a matter of having the right 
leader at the right time. He made the decision to move a bill 
through the Georgia General Assembly. And I am comfortable 
saying that 95 percent of the people who voted in favor of the 
$1 billion tax increase were all reelected. I would probably be 
comfortable saying 98 percent were reelected at the ballot. So 
the risks were minimal, but we did do a very good job of 
explaining the need. And then the city took the leadership on 
expanding transit within the city of Atlanta.
    Mr. Johnson of Georgia. Well, I want to ask you about that, 
because Atlanta has seen a number of Fortune 500 and Fortune 
100 companies moving into Atlanta as a result of our investment 
in transit. Can you elaborate on what we have done, how it has 
affected our economy?
    Mr. Reed. Sure, Congressman. We have the third largest 
concentration of Fortune 500 businesses in the United States of 
America. And I think what the business community is doing is 
depoliticizing transit, as opposed to it being a Democrat/
Republican issue. When State Farm sited 8,000 jobs outside of 
Atlanta in Dunwoody, they wanted it by a MARTA stop. When 
PulteGroup Homes moved their headquarters to Atlanta--it is the 
second biggest home builder in America--they wanted it by a 
MARTA stop.
    So what we are seeing is the business community and 
millennials want to be near transit. And so it is lifting the 
transit conversation out of urban/rural politics, because 
everybody wants terrific jobs. And we have a generation of 
folks, unlike my generation and your generation, who are not 
interested in driving automobiles. And so, if you want to be 
first to the future, you will have to be in the transit 
business. And so Republicans and Democrats have gotten in line.
    And I would suspect that Mr. Thomas sees the same thing. 
When you put down transit and infrastructure, business comes to 
it, because it is a permanent investment. And when you put it 
to voters, these items pass overwhelmingly. So I think it is 
really about being first to the future, Congressman. And you 
just have to decide whether you want to have well-paying jobs 
for your people or not. And, now, because of the business 
community's insistence on transit, and how well transit 
investments perform in terms of the economy that is built 
around it, it is helping us get out of this old argument of 
rural/urban, Democrat/Republican.
    Mr. Johnson of Georgia. Mr. Thomas, have you experienced 
the same thing in Dallas?
    Mr. Thomas. Absolutely. And as in Atlanta, we have a State 
Farm development also. And they did the same thing; they looked 
for a rail station to be close to. And the development around 
that particular station is phenomenal: 28 new restaurants, 
thousands of new residences, millions of square feet of office 
space that occur around that particular station. So the 
developers certainly understand the advantage of that 
transportation infrastructure they are looking at. Our 
communities understand it.
    The debate in north Texas is where our resources, where 
those Federal resources end up going, because they know that 
when we go in and build that infrastructure, there is going to 
be development; there is going to be job opportunities; there 
are going to be the benefit to the people, not only from a 
transportation perspective, but also, all the ancillary 
benefits that happen around those stations.
    Mr. Johnson of Georgia. Thank you. I am out of time. I 
yield back.
    Mr. Graves of Missouri. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    Once again, I want to thank you and welcome all of you to 
the committee. I appreciate your testimony.
    I am going to yield my time to Mr. LaMalfa, Doug, as we 
call him here, my time, because he has some more questions he 
would like to ask.
    So, with that, I yield.
    Mr. LaMalfa. Much appreciated, Mr. Chairman.
    Again, I appreciate the discussion with the panel. And, Mr. 
Mayor, you know, you talk about the collaborative process you 
had in Georgia there with the Governor of your city and others 
where, you know, the AAA credit rating. You are doing things 
the right way. You are talking to people and they are 
expressing what it is they wish to see happening.
    Right now in California, where we don't have a good credit 
rating, the legislature, I think really in more--well, total 
control terms, I will leave it at that--are forcing through at 
this moment, this week, a combined gas tax and car tax, which 
the people are against, especially in terms of--and I am going 
to direct a question to Mr. Patterson here in a moment. But we 
have a high-speed rail issue in California that is shown to be 
$55 billion short of funding, and we don't know where it is 
going to come from, yet we have crumbling bridges and roads 
down there that the people are going to be forced to pay a 
higher tax on their automobile registration and their gasoline. 
That is probably going to mean to a two-car middle income 
family around $500 per year additionally that they don't get to 
spend on their kids' education or whatever, for crumbling roads 
and bridges that, instead, they are seeing billions and 
billions being spent on high-speed rail at a point where nobody 
in the State other than people that make money off it seem to 
want it.
    And then, the audacity that in this new funding that would 
come from this new tax, there are not even any upgrades for new 
additional lanes or additional capacity for roads and bridges.
    So I think what is going on out there is not a 
collaborative process and it is really tone-deaf to what the 
needs of middle income families are. So I would like to see, 
where we can do it here, a much more streamlined process to get 
dollars to projects that do relieve traffic and do repairs.
    So for Mr. Patterson, you know, again, in my own county up 
there in Butte County, we have State Highway 70 that could have 
been done. There are projects that could be done in the future 
or that have already been partially done faster and less costly 
if the environmental review process didn't have to take nearly 
as long for issues environmentally that are already well-known. 
This isn't a brand new concept here that we add a lane on the 
next segment that you are going to, you know, have issues that 
are already well-known on previous studies in the same type of 
terrain.
    So what can we be doing to assist local agencies without 
having to be held hostage for some of these habitat tradeoffs, 
to have more efficient construction of transportation projects, 
whether it is rebuilding of, you know, older infrastructure or 
the additional capacity we all want and we all need as 
taxpayers?
    Mr. Patterson. Thank you, Congressman. One of the things 
that this Congress did was provide for a better process when we 
are talking about, in your example, adding lanes to or adding 
additional capacity to already identified transportation 
corridors. And the intent of Congress at the time was to go 
from fence to fence, and that would be because it is already 
cleared as a transportation corridor.
    Some of the guidelines that we have received from the 
Federal Highway Administration don't allow fence to fence, and 
so that is just pavement edge to pavement edge. And so we are 
having to work through some of those issues with the U.S. DOT 
and their rulemaking process. And I know the director in 
California, Malcolm Dougherty, is working very hard on that 
issue, as well as many other of my colleagues from around the 
country.
    Mr. LaMalfa. Thank you for that. I would like to look more 
into that fence-to-fence provision you are talking about there, 
but I will I yield back the rest of my time. And please follow 
up with my office if you get the opportunity on that. Thank 
you.
    Mr. Patterson. Yes, sir.
    Mr. Graves of Missouri. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    We heard earlier Chairman Shuster mentioned something about 
45 Members had a meeting with Secretary Chao. I would suggest 
that we invite her to meet with all members of this committee, 
so we can have a collaborative effort and continue to be 
bipartisan in our effort to put forward transportation policy. 
Maybe then they wouldn't have the problems that they had with 
the healthcare bill if we were all engaged from the beginning. 
So I would just make that suggestion.
    Also, I would like to acknowledge--and he is gone already--
but Mr. Davis from Illinois. He brought out our bill that we 
worked together on and became an amendment to the FAST Act, 
where we send more money to the local government as opposed to 
the State for it to be distributed. I think we need to continue 
down that path, because too often, the politics in the State 
capital around the DOT entities play a bigger part than good 
policy decisions. So the more we can send money to the local 
government, I think the better.
    I would like to turn my attention a little bit, though, to 
another provision in the FAST Act that I worked on, and that 
was to have Complete Streets planning put into the bill. This 
is the first time this has ever been done in a Federal 
transportation program. I was very glad to see that in my 
district in Las Vegas. We have just had an increase in 
pedestrian deaths. And, so, having a policy that begins with 
the planning through the construction through the operation of 
transportation that includes all users, I think is very 
beneficial.
    I know a number of States and local governments are 
incorporating that kind of Safe Streets planning. And I would 
like to ask you, Mayor Reed, under your leadership, I know 
Atlanta is kind of one of the stars in this area. Could you 
comment on the benefits of it, how it is working, some 
suggestions for other places to follow?
    Mr. Reed. I think that it has worked well, and I think that 
it is connecting communities and contributing to a sense of 
community that the people that created and developed the 
concept had in mind. It is what we thought it would be when 
well-executed. And so it is an approach that we are taking. It 
is a part of the reason that we had such success at the ballot 
when we went to voters for the four basis points for four-
tenths of a penny during our recent referendum. Folks are 
asking for it. And it also gives a significant boost to 
businesses that are on Complete Streets corridors.
    And, so, I think that the Complete Street approach is 
really bearing good fruit, and it is what we thought it was. 
And it needs to be pushed at every opportunity if you want your 
city or your community to be a leading one, because it is 
something people want when they are looking for a place to make 
a permanent home.
    Ms. Titus. Thank you. I believe it is not just for safety, 
but quality of life. You see more people on bicycles now, more 
people walking, all kinds of uses besides just cars and buses.
    Mr. Patterson, would you talk about what some of the States 
are doing as they include this in their planning?
    Mr. Patterson. Well, I know several States are working on 
Complete Streets. In Oklahoma, we are partnering with the city 
of Oklahoma City for a new downtown boulevard that includes 
bike lanes, pedestrian paths, as well as a new driving lane. It 
is where I-40 used to go through downtown Oklahoma City, and we 
relocated I-40 to the south of downtown, and we are putting in 
a boulevard that has the Complete Streets concept to it.
    Ms. Titus. And if you want to talk about businesses, we are 
seeing in downtown Las Vegas where they now have rent-a-bikes, 
and that is kind of part of that quality of living I was 
talking about. Would you like to comment on how it relates to 
businesses and improves that aspect of things, anybody?
    Mr. Patterson. I can tell you in Oklahoma City, we have the 
rent-a-bike program going on there, and it is growing 
exponentially. We believe that once the new boulevard is in 
place, it will explode, much like you see here in Washington, 
DC.
    Ms. Titus. Mayor?
    Mr. Reed. Our Bikeshare program has been highly popular, 
and we are getting ready to expand it by 400 percent.
    Mr. Thomas. Congresswoman, I think the benefit--and you 
certainly are aware--is how all of the different modes of 
transportation work together in a single corridor, whether it 
be buses, bikes, pedestrians, automobiles. And that planning 
effort is what makes all that happen. And so often, the 
planning effort is skipped and bypassed. So thank you very much 
for making sure that it has been included in the FAST Act.
    Ms. Titus. Thank you. I yield back.
    Mr. Graves of Missouri. Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chairman. And I join others 
in thanking our witnesses for joining us and educating us 
today.
    I would like to raise an issue that is near and dear to my 
heart and extremely important to my district, which is the 47th 
Congressional District, which starts off with the Port of Long 
Beach, which is the second largest port in the United States. 
And that is freight funding, the funding for the movement of 
freight. As you know and have mentioned, the FAST Act included 
dedicated freight funding programs for the first time. This 
included a competitive grant program dubbed FASTLANE by DOT.
    Mayor Reed, you have talked about the importance to your 
State and the city of economic development at the Port of 
Savannah, which received a $44 million grant for multimodal 
connectors, such as you have talked about.
    Mr. Patterson, your department was granted $62 million last 
year for U.S. 69, U.S. 75, for rail grade separations. So your 
organization, AASHTO, also put out a report with the American 
Association of Port Authorities that showed the growing demand 
for multimodal projects. The report stated that an absolute 
minimum need of at least $20 billion for multimodal projects. 
Yet, the FAST Act only has a total funding for multimodal 
projects of slightly more than $1 billion, $1.13 billion, and 
that is over 5 years.
    The question I have for you is, do you agree that there is 
a greater need for funding of multimodal projects?
    Mr. Patterson. Congressman, absolutely. One of the things 
that we know, AASHTO knows, is that as we have looked at the 
Federal program over the years, since the completion of the 
Interstate Highway System, we really don't have a goal, 
something to hang our hat on, if you will. We were hoping, and 
we believe, that this freight program is the next goal. It is 
imperative that we be able to move freight across this country, 
by rail, water.
    Mr. Lowenthal. I think you are doing it great. I just want 
to ask, because I have one more followup question and that is 
exactly what I wanted. Do you have anything more to add, for 
example, Mayor Reed? Do you believe it is imperative?
    Mr. Reed. The answer is absolutely.
    Mr. Lowenthal. OK. Now, I have a proposal that I first 
introduced in the 114th Congress, will be doing again, that 
puts a user fee, which is paid for by the owners of the goods, 
on the cost of shipping goods by road or rail in the United 
States to directly fund freight infrastructure. So a user fee 
paid by the owners of the goods to directly fund freight 
infrastructure.
    Maybe not this one, but would you support a similar 
proposal such as a user fee by the owners of goods to pay for 
freight infrastructure?
    Mr. Patterson. Several years ago, a group of us at AASHTO 
got together and we were looking at ways to fund transportation 
in the future. Congressman, that is exactly one of the things 
that we had come up with was an additional surcharge and user 
fee, however you would want to label it, for freight movements 
and dedicated to a freight system.
    Mr. Lowenthal. So it has to be dedicated. It would be 
sustainable paid by the users. It would be a dedicated funding 
stream to be used just for freight infrastructure.
    Would you support that, Mayor Reed?
    Mr. Reed. I don't know. I would have to have the full 
proposal to consider it.
    Mr. Lowenthal. OK. We are just talking about not so much a 
specific proposal, but just the concept that those who use the 
system would pay for the improvements in the system, dedicated, 
and some way to get both back to--you know, an appropriate way 
of distributing that fund.
    Mr. Patterson. Yes.
    Mr. Lowenthal. Thank you. And I yield back.
    Mr. Graves of Missouri. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I thank all of our witnesses for being here today. As we 
talk about the FAST Act, which I want to thank all the members 
of this committee on both sides, the chairman of the 
subcommittee, the chairman of the full committee, Mr. Shuster, 
our Ranking Member Norton, and Ranking Member DeFazio. We all 
worked well together in getting the FAST Act together and 
moved. I am hopeful that we can do the same thing on a new big 
$1 trillion or more than $1 trillion infrastructure plan. 
Things that have been talked about by the last few people, 
Members who have spoken, about Complete Streets, about transit, 
I think it is important that those are included in a new 
infrastructure package. The importance of freight movement that 
Mr. Lowenthal was just talking about, I think that is also very 
critical to do.
    I want to ask a question about something that I don't think 
anyone has yet asked about at this hearing about vehicle to 
infrastructure, or V2I technology and getting that into our 
infrastructure.
    So not only V2V, vehicle to vehicle, but V2I technology is 
vital for maximizing the benefits of autonomous and connected 
vehicles, you know, benefits such as brake safety improvements, 
less congestion on our roads, and also increasing the 
efficiency of our vehicles.
    So we really need to find creative ways to incentivize 
investment in vehicle infrastructure technology. We need to 
make targeted investments that best leverage capital, 
especially if we are going to be doing this big infrastructure 
package. Now, the FAST Act ensured that V2I infrastructure 
would remain eligible for funding, but we also need to consider 
Dig Once policies that promote installation of advanced systems 
that enable V2I during routine construction and maintenance 
projects, so we are not going back and doing it all over again.
    I have asked witnesses at previous hearings about the state 
of local--about State and local investments in this technology. 
And some have said that they have been hesitant to make 
investments, because of the lack of both industry standards and 
Federal guidance. In January, FHWA released a new V2I guidance 
document that can help transportation agencies understand the 
regional impacts of V2I deployment, prepare for emerging V2I 
and V2V technologies, and leverage Federal aid funds to deploy 
them.
    So after a long lead-up, I would just like to ask Mr. 
Patterson and Mr. Reed if you could discuss your experience 
with V2I technology, and whether or not there is sufficient 
Federal guidance to promote investments and what more can be 
done, so we make sure that we do prepare the infrastructure for 
this? Mr. Patterson, do you want to start?
    Mr. Patterson. Thank you, Congressman. I think, from an 
overall perspective and given the advances in technology, it 
has been good that the States have taken a slow methodical 
approach to integrating V2I into the system. When you look at--
technology doubles every year, and you look back 5 years ago 
when we really got into the discussion about V2I, it has 
changed. The guidance that came out is very helpful. We have 
several of our members who are very involved in leading the 
technology. I can tell you in Oklahoma, we are still learning. 
We are not as far advanced as some other States are in the 
discussion, but it is something we are beginning to understand 
and embrace. And it was that guidance and it is the support of 
AASHTO members that gets us to that point.
    Mr. Lipinski. And, Mayor Reed, do you have anything to add?
    Mr. Reed. Congressman, we are developing a Smart Corridor 
along North Avenue near Georgia Tech and by the Coca-Cola 
Company that will be really testing all of these technologies 
at once. So, much like my colleague, we are in the very early 
stages of it. Candidly, we have been putting a great deal more 
energy into self-driven vehicle technology and we have been 
slower on V2I.
    Mr. Lipinski. Is there anything the Federal Government can 
do to help to speed things along, make it easier for States and 
localities to do this?
    Mr. Reed. I think that rules of the road from Federal 
experts could shorten the learning curve for municipalities, 
because that is really the challenge for us. When these new 
kinds of technologies and relationships occur, we have to come 
up to speed on that and we have to put in a good amount of 
person power for that. So knowing where the Federal Government 
is going in the future in that regard would send an important 
signal to where we should be going.
    Mr. Patterson. I think that collaboration and cooperation 
is going to be very important, as the mayor said, as we begin 
to develop our system in Oklahoma and as other States expand 
their V2I capabilities. If you think about it, this is really a 
turning point for all of transportation. It is almost as 
extensive as going from the horse and buggy to the Model T. So 
it is something that we are very interested in and our 
customers, the public, is going to demand that kind of reaction 
from us.
    Mr. Lipinski. Thank you. I yield back.
    Mr. Graves of Missouri. Any other further questions?
    Seeing none, I would like to obviously thank our witnesses 
for your testimony today, because your contribution to today's 
discussion, it has obviously been very informative and very 
helpful.
    With that, I would ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided any answers to any questions that may be 
submitted to them in writing; and unanimous consent that the 
record remain open for 15 days for additional comments and 
information submitted by Members or witnesses, to be included 
in the record of today's hearing.
    Without objection, that is so ordered.
    And if no other Members have anything to add, then the 
subcommittee stands adjourned. Thank you all.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
  
                          [all]
                          
                          
                          
                          
                                    
</pre></body></html>
